<html>
<title> - WORKER RIGHTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                             WORKER RIGHTS

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China







<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.cecc.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
73-765 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)








                             Worker Rights

                                Findings

        <bullet> Workers in China still are not guaranteed, 
        either by law or in practice, full worker rights in 
        accordance with international standards, including the 
        right to organize into independent unions. The All-
        China Federation of Trade Unions (ACFTU), the official 
        union under the direction of the Communist Party, is 
        the only legal trade union organization in China. All 
        lower level unions must be affiliated with the ACFTU.
        <bullet> The Commission continues to note the lack of 
        genuine labor representation in China. ACFTU officials 
        continue to state that it is their goal to develop 
        stronger representation for workers. In January 2011, 
        for example, the ACFTU announced its plan to establish 
        a system of electing worker representatives in 80 
        percent of unionized public enterprises and 70 percent 
        of unionized non-public enterprises in 2011. In March 
        2011, Zhang Mingqi, the vice chairman of the ACFTU, 
        acknowledged that an increase in worker actions was due 
        to enterprises having ``neglected the legal rights and 
        benefits of workers'' for many years. Multiple 
        localities in China also announced plans to establish 
        collective wage consultation systems in coming years, 
        including Qingdao, Changde, Rizhao, Qinhuangdao, and 
        Shenzhen.
        <bullet> At the same time, advocates for worker rights 
        in China continue to be subjected to harassment and 
        abuse. In particular, officials appear to target 
        advocates who have the ability to organize and mobilize 
        large groups of workers. For example, in October 2010, 
        a Xi'an court sentenced labor lawyer and advocate Zhao 
        Dongmin to three years in prison for organizing workers 
        at state-owned enterprises. Authorities charged him 
        with ``mobilizing the masses to disrupt social order.'' 
        Authorities continue to detain Yang Huanqing for 
        organizing teachers in fall 2010 to petition against 
        social insurance policies they alleged to be unfair.
        <bullet> As the Commission found in 2010, Chinese 
        authorities continue to face the challenge of 
        accommodating a younger, more educated, and rights-
        conscious workforce. In February 2011, the ACFTU 
        released a set of policy recommendations intended to 
        better address the demands of these young workers. 
        Younger workers, born in the 1980s and 1990s, continue 
        to be at the forefront of worker actions in China this 
        year, including large-scale street protests in southern 
        China in June 2011. These young workers also make up 
        about 100 million of China's 160 million migrant 
        workers, and compared to their parents, have higher 
        expectations regarding wages and labor rights. China's 
        Minister of Agriculture Han Changfu has pointed out 
        that many of these young workers have never laid down 
        roots, are better educated, are the only child in the 
        family, and are more likely to ``demand, like their 
        urban peers, equal employment, equal access to social 
        services, and even the obtainment of equal political 
        rights.''
        <bullet> With Chinese officials charged with preserving 
        ``social stability,'' the extent to which they will 
        allow workers to bargain for higher wages and genuine 
        representation remains unclear. In part to address 
        official concern over the unequal distribution of 
        wealth across China and its potential effects on 
        ``social unrest,'' the government reportedly is 
        considering a national regulation on wages. Chinese 
        media in the past year reported that the draft 
        regulation includes provisions creating a ``normal 
        increase mechanism'' for wages, defining a set of 
        standards to calculate overtime pay, and requiring the 
        management of certain ``monopolized industries'' 
        (longduan qiye) to disclose to the government and the 
        public the salary levels of their senior employees.
        <bullet> The Commission continued to monitor the 
        progress of Guangdong province's draft Regulations on 
        Democratic Management of Enterprises, which reportedly 
        would extend to workers the right to ask for collective 
        wage consultations and allow worker members to sit on 
        the enterprise's board of directors and board of 
        supervisors, represent worker interests in the boards' 
        meetings, and take part in the enterprise's 
        decisionmaking processes. In September 2010, the 
        Standing Committee of the Guangdong People's Congress 
        reportedly withdrew the draft from further 
        consideration due to heavy opposition from industry. 
        During this reporting year, a major Hong Kong media 
        source reported that Guangdong authorities would 
        approve the draft in January 2011. However, no such 
        action has been observed.
        <bullet> Chinese workers, especially miners, continued 
        to face persistent occupational safety issues. In 
        November 2010, the ACFTU released figures showing a 32 
        percent increase in occupational illnesses in 2009, of 
        which the vast majority involved lung disease. 
        Officials took some efforts to close some mines and 
        promote safety, and fatalities have been consistently 
        reduced over the past few years, but uneven enforcement 
        reportedly continued to hinder such efforts. Collusion 
        between mine operators and local officials reportedly 
        remains widespread.
        <bullet> In January 2011, revisions to the Regulations 
        on Work-Related Injury Insurance became effective. The 
        changes include requiring officials to respond more 
        quickly to worker injury claims, but the effectiveness 
        of the changes is unclear. As the Commission reported 
        last year, the claims process may last for more than a 
        decade. The process is further complicated for migrant 
        workers who may already have left their jobs and moved 
        to another location by the time clinical symptoms 
        surface.
        <bullet> The extent of child labor in China is unclear 
        in part because the government does not release data on 
        child labor despite frequent requests by the U.S. 
        Government, other countries' governments, and 
        international organizations. While a national legal 
        framework exists to address the issue, systemic 
        problems in enforcement have dulled the effects of 
        these legal measures. Reports of child labor continued 
        to surface this past year. As an example, in March 
        2011, Shenzhen authorities reportedly found 40 children 
        working at an electronics factory.
        <bullet> The National People's Congress Standing 
        Committee passed the PRC Social Insurance Law in 
        October 2010, and it became effective on July 1, 2011. 
        The law specifies that workers may transfer their 
        insurance from one region to another and discusses five 
        major types of insurance: Old-age pension, medical, 
        unemployment, work-related injury, and maternity. No 
        implementing guidelines have been released and some 
        critics have said the law is too broad to be 
        implemented effectively. In addition, the extent to 
        which the law will enable a greater number of migrant 
        workers to obtain social insurance remains unclear. At 
        the same time, migrant workers continued to face 
        discrimination in urban areas, and their children still 
        faced difficulties accessing city schools. Employment 
        discrimination more generally continued to be a serious 
        problem, especially for workers without urban household 
        registration status.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support projects promoting reform of Chinese 
        labor laws and regulations to reflect internationally 
        recognized labor principles. Prioritize projects that 
        not only focus on legislative drafting and regulatory 
        development, but also analyze implementation and 
        measure progress in terms of compliance with 
        internationally recognized labor principles at the 
        shop-floor level.
        <all> Support multi-year pilot projects that showcase 
        the experience of collective bargaining in action for 
        both Chinese workers and trade union officials; 
        identify local trade union offices found to be more 
        open to collective bargaining; and focus pilot projects 
        in those locales. Where possible, prioritize programs 
        that demonstrate the ability to conduct collective 
        bargaining pilot projects even in factories that do not 
        have an official union presence. Encourage the 
        expansion of exchanges between Chinese labor rights 
        advocates in non-governmental organizations (NGOs), the 
        bar, academia, the official trade union, and U.S. 
        collective bargaining practitioners. Prioritize 
        exchanges that emphasize face-to-face meetings with 
        hands-on practitioners and trainers.
        <all> Encourage research that identifies factors 
        underlying inconsistency in enforcement of labor laws 
        and regulations. This includes projects that prioritize 
        the large-scale compilation and analysis of Chinese 
        labor dispute litigation and arbitration cases and 
        guidance documents issued by, and to, courts at the 
        provincial level and below, leading ultimately to the 
        publication and dissemination of Chinese language 
        casebooks that may be used as a common reference 
        resource by workers, arbitrators, judges, lawyers, 
        employers, union officials, and law schools in China.
        <all> Support capacity-building programs to strengthen 
        Chinese labor and legal aid organizations involved in 
        defending the rights of workers. Encourage Chinese 
        officials at local levels to develop, maintain, and 
        deepen relationships with labor organizations inside 
        and outside of China and to invite these groups to 
        increase the number of training programs in mainland 
        China. Support programs that train workers in ways to 
        identify problems at the factory-floor level, equipping 
        them with skills and problem-solving training so they 
        can relate their concerns to employers effectively.
        <all> Where appropriate, share the United States' 
        ongoing experience and efforts in protecting worker 
        rights--through legal, regulatory, or non-governmental 
        means--with Chinese officials. Expand site visits and 
        other exchanges for Chinese officials to observe and 
        share ideas with U.S. labor rights groups, lawyers, the 
        U.S. Department of Labor (USDOL), and other regulatory 
        agencies at all levels of U.S. Government that work on 
        labor issues.
        <all> Support USDOL's exchange with China's Ministry of 
        Human Resources and Social Security (MOHRSS) regarding 
        setting and enforcing minimum wage standards; 
        strengthening social insurance; improving employment 
        statistics; and promoting social dialogue and exchanges 
        with China's State Administration of Work Safety (SAWS) 
        regarding improving workplace safety and health. 
        Support the annual labor dialogue with China that USDOL 
        started in 2010 and its plan for the establishment of a 
        safety dialogue. Encourage discussion on the value of 
        constructive interactions among labor NGOs, workers, 
        employers, and government agencies. Encourage exchanges 
        that emphasize the importance of government 
        transparency in developing stable labor relations and 
        in ensuring full and fair enforcement of labor laws.

                              Introduction

    Workers in China still are not guaranteed, either by law or 
in practice, full worker rights in accordance with 
international standards, including the right to organize into 
independent unions. Advocates for worker rights in China 
continued to be subjected to harassment and abuse. The All-
China Federation of Trade Unions (ACFTU), the official union 
under the direction of the Communist Party, is the only legal 
trade union organization in China. All lower level unions must 
be affiliated with the ACFTU.
    During the 2011 reporting year, Chinese authorities have 
faced the dual challenges of accommodating a younger, more 
educated, and rights-conscious workforce and addressing changes 
in economic development patterns (including inland growth, 
fewer workers migrating to coastal areas, rising wages, and 
labor shortages in some locales). Due in part to shifting 
labor, economic, and demographic conditions, official and 
unofficial reports have indicated that workers appeared to have 
gained increased leverage in the relationship between labor and 
capital. In recent years, Chinese workers have become more 
assertive in securing their rights, higher wages, more genuine 
representation, and better protection under China's labor laws. 
In some cases during this reporting year, workers continued to 
channel their grievances through, and to seek guidance, advice, 
and legal aid from, labor lawyers and advocates. At the same 
time, authorities have harassed, detained, and sent to prison 
labor advocates who attempted to organize workers for 
``disrupting social order.'' Some local officials reportedly 
beat and kicked striking workers and labor petitioners, and 
reports of attacks on migrant workers seeking back pay 
continued to surface.
    With Chinese officials charged with preserving ``social 
stability,'' the extent to which they will allow workers to 
bargain for higher wages and genuine representation remains 
unclear. Principles and different aspects of collective 
bargaining rights have been mentioned in multiple drafts of 
local and national regulations during this reporting year, 
including the draft Regulation on Wages--proposed in part to 
address official concern over the unequal distribution of 
wealth across China and its potential effects on ``social 
unrest''--as well as trials and measures for collective wage 
negotiations in different localities. Some critics, however, 
have questioned the lack of specifics in some of these 
proposals and, thus, their eventual effectiveness.

     Rights Consciousness, Worker Actions, and ``Social Stability''

    During this reporting year, Chinese officials have 
continued to assess the characteristics of the new generation 
of migrant workers as well as their significance on the 
shifting labor landscape, public safety, and ``social 
stability.'' \1\ Chinese government statistics suggest that 
these young workers constitute 61.6 percent of all migrant 
workers.\2\ In February 2011, the ACFTU released a study 
identifying the characteristics unique to current young migrant 
workers. The document also provided several policy 
recommendations for ``resolving the problems facing the new 
generation of migrant workers in realizing their rights and 
interests.'' \3\ The report notes that over half of young 
migrant workers are unmarried and that 74.1 percent of them had 
``studied in school'' prior to leaving home. By contrast, only 
35.4 percent of the ``traditional migrants,'' those born before 
1980, had studied in school.\4\ These young migrant workers 
also are mostly concentrated in secondary and tertiary 
industries and are overwhelmingly employed by private 
enterprises (84.3 percent) as opposed to state-owned 
enterprises (12.5 percent).\5\ On average, they receive lower 
wages (167.27 yuan (US$26) lower than ``traditional 
migrants''); are more likely to sign labor contracts that lack 
specific provisions detailing minimum pay in line with local 
regulations; have less employment stability; face ``relatively 
more hidden dangers'' in terms of workplace safety; and are 
less likely to join labor unions (44.6 percent of young migrant 
workers are union members, versus 56 percent of ``traditional 
migrants'').\6\
    The ACFTU report provides several recommendations on ways 
in which the government may more effectively accommodate 
younger workers' unique life experiences and characteristics. 
Some of the suggestions include strengthening efforts to tackle 
wage disparities, advance social insurance programs, provide 
technical training to increase young migrant workers' 
competitiveness and ability to adjust to changing 
circumstances, encourage localities to explore methods to 
reform the household registration system, and organize young 
migrant workers into unions and facilitate channels for them to 
address their grievances.\7\ These suggestions appear to 
reflect the Chinese government's initial ideas to grapple with 
the aforementioned generational changes, a generation of 
migrant workers who, as one senior Chinese official observed, 
have never put down roots, are better educated, are only 
children, and are more likely to demand equal access to 
employment and social services--and even equal political 
rights--in the cities.\8\
    Official and unofficial reports indicate that, for the most 
part, the young migrant workers described above have been at 
the forefront of recent worker actions.\9\ Worker actions have 
been common in China in recent years, and that continues to be 
the case during the 2011 reporting year. China Strikes, a Web 
site dedicated to ``track[ing] strikes, protests and other 
collective actions taken by Chinese workers to defend their 
rights and interests,'' recorded at least 32 such actions by 
workers from October 2010 to May 2011.\10\
    As with the spate of worker actions that took place in the 
spring and summer of 2010 that garnered international 
attention, workers during this reporting year took action to 
recover back wages, protest the non-payment of wages, call for 
higher pay, and, for some older workers, demand due 
compensation in the cases of restructuring at certain 
enterprises. Social inequality and the lack of rule of law 
reportedly played a role in driving low-paid migrant workers to 
participate in a series of riots and protests in southern China 
in June 2011.\11\ In April 2011, workers reportedly blocked the 
front gate of a liquor factory protesting the compensation 
terms during restructuring.\12\ In the same month, more than 
1,000 truck drivers in Shanghai municipality, reacting to 
rising fuel costs, protested for higher pay. In March 2011, 
about 80 sanitation workers in Guangzhou city, Guangdong 
province, took part in work stoppages to protest non-payment of 
wages, claiming that management owed each worker from 3,000 to 
4,000 yuan (US$464 to US$618) for overtime and other 
allowances.\13\ In November 2010, an ``entire street'' in 
Foshan city, Guangdong province, was reportedly ``filled with 
workers,'' perhaps up to 7,000, as management at Foxconn, a 
Taiwanese-owned company that produces electronics, allegedly 
forced workers to sign contracts with terms that many workers 
found unsatisfactory.\14\ Starting in October 2010, about 70 
workers at a Japanese-owned factory took part in strikes to 
demand that the company comply with China's labor laws, 
including the right to sign contracts and to be compensated 
with overtime payments.\15\
    Chinese authorities during this reporting year continued to 
harass, detain, and imprison labor advocates and lawyers whom 
officials deemed to be threats to ``social stability.'' For 
example, authorities ordered Yang Huanqing, a teacher in 
Jingzhou city, Hubei province, to serve one year of reeducation 
through labor in March 2011 for ``disrupting work unit order'' 
when he supposedly organized 22 and 33 dismissed teachers in 
October and November 2010, respectively, to petition in 
Beijing. Yang reportedly led the teachers to petition against 
social insurance policies they alleged were unfair.\16\
    In another case that reflects authorities' concern with 
labor advocates' and lawyers' ability to organize and mobilize 
large groups of workers, the Xincheng District People's Court 
in Xi'an city, Shaanxi province, sentenced labor lawyer and 
advocate Zhao Dongmin to three years' imprisonment on October 
2010 for ``gathering a crowd to disrupt social order.'' \17\ 
Zhao had allegedly organized workers at state-owned enterprises 
in Xi'an in April 2009 to establish the Shaanxi Union Rights 
Defense Representative Congress, an organization that, 
according to China Labor News Translations, a Web site 
dedicated to analyzing developments in China labor relations, 
was ``critical of the Chinese [state-run] trade union's failure 
to represent the interests of state sector employees in 
restructured and/or privatized enterprises.'' \18\ Prior to 
Zhao's arrest, Shaanxi authorities had warned that Zhao and 
others had:

        seriously disrupted the normal workings of Party and 
        government organs and have become a huge potential 
        danger to social stability. They have made use of 
        problems in society, including using old and frail 
        enterprise retirees as cannon fodder to pressure the 
        government. They have stirred up extreme delusions and 
        fanned the flames in an extremely outrageous manner. If 
        resolute measures are not adopted, they will grow into 
        a threatening force and are very likely to wreak even 
        greater havoc to social stability.\19\

            Freedom of Association and Collective Bargaining

    The Chinese government prevents workers in China from 
exercising their constitutional right to freedom of 
association.\20\ Trade union activity in China is organized 
under the All-China Federation of Trade Unions (ACFTU), a 
quasi-governmental organization under the direction of the 
Communist Party.\21\ Leading trade union officials hold 
concurrent high-ranking positions in the Party. The ACFTU 
Constitution and the Trade Union Law of 1992 both highlight the 
dual nature of the ACFTU to protect the legal rights and 
interests of workers while supporting the leadership of the 
Party and the broader goals and interests of the Chinese 
government.\22\ The ACFTU monopolizes many worker rights issues 
in China, such as shop-floor organizing and formalistic 
collective contract negotiations, but it does not consistently 
or uniformly advance the rights of workers.\23\
    At the shop-floor level, the ACFTU's unions remain weak and 
marginalized. While the ACFTU and its affiliated unions at 
lower administrative levels sometimes may play an important 
role in legislative and regulatory development, this role is 
not matched with power at the enterprise level. Generally 
speaking, firm-level union branches are weak, non-democratic, 
and subordinate to management.\24\ Despite an increase in 
legislation and administrative regulations that grants the 
ACFTU more power at the firm level to resolve disputes, the 
structural weaknesses of the trade union branches make 
improvements in trade union autonomy and worker advocacy 
difficult and slow.\25\


                         collective contracting


    Collective contracts and some process of collective 
consultation and negotiation have been part of Chinese labor 
relations since the 1990s, when state enterprise reform 
deepened and labor conflict began to increase rapidly, 
especially in the private sector. The ACFTU has championed 
collective contracts and collective negotiations as important 
foundations for trade union work at the enterprise level. In 
recent years, the collective contract system has received more 
Chinese government and Communist Party support as part of an 
attempt to institutionalize a tripartite system of labor 
relations at the local level between the government, the ACFTU, 
and the employer associations.\26\ Moreover, some Chinese 
officials have stated in public that collective consultation--
and, in the process, fostering more genuine representation for 
workers--could be an effective way to defuse labor disputes and 
develop ``harmonious labor relations.'' \27\
    In January 2011, the ACFTU published a set of ``work 
objectives'' for the new year, stating the organization's goal 
to ``set up trade union organizations according to law to 
unionize the vast majority of workers[.]'' \28\ More 
specifically, some of the benchmarks that the ACFTU document 
provided include the boosting of national unionization rates at 
``businesses with corporate capacity to 65 [percent],'' and an 
increase in ``the number of union memberships to make up more 
than 80 [percent] by the end of 2011'' and ``over 90 [percent] 
by the end of 2013.'' \29\ Even as the ACFTU supplied 
quantifiable benchmarks, however, it is not clear how these 
goals will be implemented in practice. It remains to be seen 
whether such goals will facilitate the approval of local and 
national regulations with specific implementation and follow-
through directives and measures, as well as the necessary 
reforms to make unions more representative of workers' 
interests.\30\
     During this past year, the Commission continued to follow 
developments concerning the Guangdong province draft 
Regulations on Democratic Management of Enterprises 
(Regulations). As the Commission reported last year,\31\ the 
draft Regulations would extend to workers the right to ask for 
collective wage consultations \32\ and allow worker members to 
sit on the enterprise's board of directors and board of 
supervisors,\33\ represent worker interests in the boards' 
meetings,\34\ and take part in the enterprise's decisionmaking 
processes.\35\ In September 2010, reportedly under heavy 
lobbying by members of the Hong Kong industrial community, many 
of whom operate factories in southern China and are concerned 
with rising production costs, the Guangdong People's Congress 
Standing Committee decided to suspend further deliberation of 
the draft Regulations.\36\ In January 2011, a source in the 
Hong Kong industrial community who had met with officials in 
Guangdong province reported to the South China Morning Post 
that the Guangdong Provincial People's Congress would ``very 
likely'' approve the draft Regulations later that month.\37\ 
Other unofficial sources, however, suggest that the approval 
process of the draft Regulations seemed to have stalled 
indefinitely.\38\
    Other localities in China also announced plans to establish 
collective wage consultation systems in the coming years. In 
Qingdao city, Shandong province, for example, the Qingdao City 
Health Bureau announced in March 2011 goals to establish a 
system of ``equal collective wage consultation'' for all 
contract workers within three years.\39\ In a city with more 
than 40,000 medical workers, the health bureau's plan 
reportedly will only cover contracted workers, who number 
around 5,000.\40\ At medical organizations where unions do not 
yet exist, a government document suggests that workers may 
choose their own representatives.\41\ This past year, other 
cities that reported plans for collective wage consultation 
initiatives included Changde city, Hunan province; \42\ Rizhao 
city, Shandong province; \43\ Qinhuangdao city, Hebei province; 
\44\ and Guanghaiwei city, Zhejiang province.\45\ The Shenzhen 
Municipal Trade Union reportedly plans to sign collective wage 
contracts at 550 enterprises in the next year.\46\
    The extent to which the ACFTU's stated goals, if 
materialized, and other local experiments with collective 
consultation will expand the space for greater and more genuine 
worker representation remains unclear. At present, the 
collective contract and consultation system remains weak and 
formalistic in many cases because enterprise-level trade union 
leaders are not positioned to serve the interests of their 
workers. Many collective contracts reportedly solely reflect 
the basic legal standards in the locality and often are the 
result of concerted government or Party work to encourage the 
enterprise to enter into formalistic contracts rather than the 
result of genuine bargaining between management and the 
enterprise trade union.\47\ Finally, none of the aforementioned 
actions taken by different localities and the ACFTU have 
changed the fact that freedom of association does not exist in 
China.

                            Migrant Workers

    Migrants are generally characterized as rural residents who 
have left their place of residence to seek non-agricultural 
jobs in Chinese cities, sometimes in the same province and 
sometimes far from home. Official Chinese government statistics 
break down the total number of migrants into those who spent 
less than half the year as migrants, i.e., those who spent less 
than six months during the year away from their place of legal 
residence (61 million in 2010), and those who spent more than 
half the year as migrants (160 million in 2010).\48\ The 
government estimates that over the next three decades, about 
300 million people are expected to relocate to urban areas.\49\ 
As a marginalized urban group, migrant workers are often 
abused, exploited, or placed in unsafe work conditions by 
employers who take advantage of their insecure social position 
and lower levels of education.\50\ Persistent discrimination 
reportedly continues to adversely affect the social, civil, and 
political rights of migrant workers.\51\
    In 2011, migrant workers continued to face serious 
challenges in the workplace, such as wage arrears and non-
payment of wages.\52\ They also lacked access to reliable 
social insurance, specifically payments covering occupational 
injuries and diseases.\53\ Many localities have expanded 
efforts to provide migrants with social insurance coverage. 
Figures from the Chinese Ministry of Human Resources and Social 
Security indicated that, by mid-2011, 838 counties in 27 
provinces and autonomous regions, as well as the four directly 
administered municipalities, had launched what the State 
Council has called the ``new-type rural social old-age 
insurance pilots,'' covering 24 percent of the population in 
these areas.\54\ A 2009 State Council document also provided 
details on ways to make social insurance accounts transferable 
as migrants move around the country.\55\ There still appear to 
be significant problems in terms of participation (for both 
employers and employees), coverage, and portability between 
rural and urban areas.\56\ Migrant workers generally are able 
to withdraw funds only from their individual accounts, losing 
the larger percentage of their pensions that is paid by their 
employers. With migrant workers facing uncertainty about 
whether they will return to the same locale from one year to 
the next to look for new work, and with the portability of 
pension accounts highly restricted, some have chosen to 
withdraw their pensions.\57\

                        Law on Social Insurance

    The National People's Congress approved the PRC Law on 
Social Insurance in October 2010, and it went into effect on 
July 1, 2011.\58\ The law states that the Chinese government 
will establish \59\ a system of basic old-age insurance,\60\ 
medical insurance,\61\ work-related injury insurance,\62\ 
unemployment insurance,\63\ and maternity insurance.\64\ It 
specifies the respective responsibilities of employees and 
employers to fund contributions for different insurance 
programs. Under the law, both the employee and the employer, 
for example, are required to contribute toward the basic 
insurance funds for old-age pensions, medical care, and 
unemployment benefits.\65\ For work-related injury and 
maternity insurance, however, only the employer is responsible 
for the contributions.\66\ The law also requires employers to 
register employees with social insurance agencies within 30 
days of hire,\67\ delineates the legal penalties for an 
employer who fails to contribute the required funds within the 
specified time limit,\68\ and grants social insurance agencies 
the right to seek help from government administrative units--at 
the county level or above--to request the transfer of funds 
equal to the amount of missed payments from the appropriate 
banking and financial institutions.\69\
    One of the law's stated aims is to make social insurance 
coverage ``sustainable,'' \70\ and the law specifies that 
workers may transfer their accounts as they move from one 
region to another. It explicitly states that ``rural residents 
entering cities to work may participate in social insurance.'' 
\71\ In the cases of old-age and medical insurance, the law 
seeks to enable their portability by stating that, for an 
individual who travels from one region to another for work, his 
or her basic old-age and medical insurance records ``will 
transfer along with the individual,'' and the calculation of 
his or her contributions will be ``cumulative.'' \72\ Once the 
individual reaches retirement age, basic old-age insurance 
benefits will be calculated by taking into account work 
performed in all localities, but payments will be made in a 
``unified'' way (i.e., no distinction between work done in 
rural and urban areas).\73\ The law, however, states only that 
``national coordination'' of old-age insurance pools and 
``provincial coordination'' of the other four insurance pools 
will be ``gradually implemented,'' leaving the ``specific time 
frame [and] steps'' for the State Council to decide.\74\ 
Moreover, one foreign law firm pointed out that since the law 
does not provide ``national united social insurance 
contribution rates . . . employers would still need to refer to 
the local regulations for contribution rates of the social 
insurance schemes.'' \75\ At this point, the law's 
effectiveness and ability to standardize and expand China's 
social safety net remain unclear and implementation regulations 
have yet to be issued.\76\

                                 Wages

    By the end of 2010, 30 provinces had reportedly raised 
minimum wage levels by an average of 22.8 percent.\77\ Some 
localities continued to establish higher levels of increases 
thereafter.\78\ On March 1, 2011, Guangdong province announced 
a four-tier minimum wage level chart, categorizing minimum wage 
levels by region within the province.\79\ Authorities assigned 
Guangzhou city, the provincial capital, a level of 1,300 yuan 
(US$200) per month. Dongguan city, where many foreign-invested 
factories are located, fell into the second category, with a 
new minimum wage level of 1,100 yuan (US$170) per month. In 
Shenzhen, effective April 1, 2011, the government raised the 
minimum wage level by 20 percent, to 1,320 yuan (US$204) per 
month, the highest in China.\80\ Other localities, such as 
Shanghai municipality and Shandong province, also established 
further increases.\81\ Reports indicate that some cities 
proceeded to raise minimum wages because they struggled to 
attract workers.\82\ Despite rising minimum wage levels, 
however, reports also indicate that inflationary pressure 
continued: Inflation stood at 5.4 percent in March 2011 \83\ 
and 5.5 percent in May 2011, with food prices rising by 11.7 
percent.\84\

    The PRC 1994 Labor Law guarantees minimum wages for workers 
and requires local governments to set wage standards for each 
region.\85\ The PRC Labor Contract Law improves formal 
monitoring requirements by tasking local labor bureaus to 
monitor labor practices to ensure rates adhere to minimum wage 
standards.\86\ The law also imposes legal liability on 
employers who pay rates below minimum wage.\87\ In addition, 
the law guarantees minimum hourly wages for part-time 
workers.\88\
    Illegal labor practices, however, continue to undermine 
minimum wage guarantees. Wage arrears remain a serious problem, 
especially for migrant workers.\89\ Subcontracting practices 
within industry reportedly also exacerbate the problem of wage 
arrearages. When investors and developers default on their 
payments to construction companies, workers at the end of the 
chain of labor subcontractors may lack the means to recover 
wages from the original defaulters. Some subcontractors neglect 
their own duties to pay laborers and leave workers without any 
direct avenue to demand their salaries.\90\ The Ministry of 
Human Resources and Social Security, in conjunction with other 
government agencies--including the Ministry of Public Security 
and the State-Owned Assets Supervision and Administration 
Commission--reportedly formed a ``united investigative group'' 
and examined wage arrears problems in provincial-level areas 
such as Tianjin, Hebei, Inner Mongolia, Jilin, Zhejiang, 
Jiangxi, Liaoning, Guangxi, Qinghai, and Xinjiang.\91\


                       draft regulation on wages


    In part to address official concern over the unequal 
distribution of wealth across China and its potential effects 
on ``social unrest,'' Chinese media sources indicated that the 
Chinese government reportedly has assembled a ``basic 
framework'' for a national regulation on wages.\92\ The 
Ministry of Human Resources and Social Security (MOHRSS) began 
formulating the regulation in 2007, and officials reportedly 
started soliciting comments and suggestions for a completed 
draft in early 2009.\93\ Some media reports indicated that the 
regulation would be approved sometime in 2010, though one 
MOHRSS official later said that was never the case.\94\ It 
appears that deliberations surrounding the pending regulation 
likely will continue throughout 2011.\95\
    Based on media reporting, the draft contains 10 sections, 
including provisions that delineate the ``parameters for 
collective contracts, collective consultations, and minimum 
wages.'' \96\ In addition, the draft reportedly lays out 
standards to determine minimum wage level increases, and 
mandates certain enterprises to ``periodically and publicly 
release average wage levels, increases, and bonuses''; \97\ 
requires that overtime compensation, time off given on days 
with extreme temperatures, as well as various kinds of state 
subsidies may not be factored into the calculation of wage 
levels; \98\ calls upon provinces to consider local consumer 
price indexes in setting minimum wage levels; \99\ and 
establishes a ``normal increase mechanism'' to ``create a 
system'' of collective wage consultations and ``open a 
scientifically logical space for wage increases.'' \100\
    Labor experts cited in Chinese media reports also commented 
that the draft lacks clarity on certain points. For example, it 
reportedly does not delineate whether or not employers will be 
required to answer workers' demands for collective wage 
negotiations, nor does it lay out the consequences for failing 
to do so.\101\ One labor expert also supported the idea to 
``link wage increases to the growth of enterprises,'' which 
apparently was introduced in an earlier version of the 
draft.\102\
    Reportedly, the draft regulation attempts to bridge the 
wealth gap with additional provisions such as requiring the 
disclosure to both the government and the public of plans to 
adjust salary levels and benefits within what one state-run 
publication called ``monopolized industries.'' \103\ These so-
called ``monopolized industries'' (longduan qiye) refer to 
state-owned enterprises in industries such as electricity, 
telecommunications, insurance, and finance.\104\ Another 
provision reportedly also would require these enterprises to 
seek approval from three different government departments 
before issuing bonuses or raises.\105\ One media report 
suggested that these provisions have contributed to the delay 
in the regulation's approval.\106\ One academic cited in the 
same report stated that the draft's proposed ``interference 
with or even control of wages through administrative methods 
are not compatible with the trends of market economics.'' \107\


                   pressure to examine wage policies


    In 2011, three developments continued to exert pressure on 
Chinese officials at all levels to examine their policies on 
wages: Labor shortages in certain areas, growing income 
inequality, and the central government's acknowledgement of the 
need to rebalance China's economy. During this reporting year, 
the Commission monitored reports of labor shortages surfacing 
in China's manufacturing centers, particularly in the south and 
coastal areas.\108\ As early as 2006, the PRC State Council 
Development Research Center found that 75 percent of the 2,749 
villages surveyed in China ``no longer have young laborers to 
move'' outward,\109\ and other reports also suggest that more 
migrant workers are opting to pursue opportunities in their 
home provinces.\110\ Such developments reportedly have 
contributed to the upward pressure on wage levels and, combined 
with other factors, have made some factory owners consider 
moving their operations further inland or to Southeast Asian 
countries in order to keep production costs competitive.\111\ 
At the same time, it has been pointed out that ``improved 
productivity can pay for more than half of these wage 
increases, while the other half can be passed in the form of 
higher customer prices.'' \112\ Moreover, despite moderate 
increases, wages actually have fallen for 22 straight years in 
proportion to China's gross domestic product.\113\
    The unequal distribution of wealth received much attention 
in recent years. The National People's Congress and the Chinese 
People's Political Consultative Conference featured this issue 
prominently during their March 2010 meetings.\114\ In 2011, the 
Chinese media continued to report on the growing gap between 
the rich and the poor.\115\ The current ``income ratio among 
China's eastern, central, and western regions'' is roughly 
1.52:1:0.68.\116\ Moreover, the distribution has grown more 
unequal over time, with rural areas lagging far behind the 
urban regions.\117\ According to a November 2010 Chinese 
report, the ratio of ``urban to rural income'' was 2.9:1 in 
2001, 3.22:1 in 2005, and 3.31:1 in 2008.\118\ The difference 
between the top and bottom 10 percent of China's income earners 
has increased from a multiple of 7.3 in 1988 to 23 in 
2009.\119\
    Chinese officials have appeared more willing to openly 
acknowledge that a higher consumption rate within China is an 
important part of the government's efforts to rebalance the 
country's economic development. The PRC Outline of the 12th 
Five-Year Plan on National Economic and Social Development, for 
example, noted that Chinese officials ``must be soberly aware 
of the fact that the problems of lack of balance, lack of 
coordination, and lack of sustainability in China's development 
remain prominent'' and that the imbalance in the ``investment 
and consumption relationship'' poses a challenge to the 
country's future growth.\120\ More pointedly, Premier Wen 
Jiabao has also described China's current growth model as 
``unbalanced, unstable, uncoordinated, and unsustainable.'' 
\121\ Although some experts have said that reforms can be done 
in the short term via ``administrative fiat,'' such as 
``mandatory wage hikes,'' any rebalancing efforts will be 
difficult, as ``state-backed and private corporate sectors are 
likely to protest reforms that threaten their margins, as will 
these sectors' support bases associated with their interests, 
such as the commerce ministry and the Ministry of Industry and 
Information Technology.'' \122\

                Occupational Safety and Work Conditions


                    legal framework and developments


    The PRC Law on Safe Production, which took effect in 2002, 
delineates a set of guidelines to prevent workplace accidents 
and to keep ``their occurrence at a lower level, ensuring the 
safety of people's lives and property and promoting the 
development of the economy.'' \123\ Specifically, the law 
charges principal leading members of production and business 
units to educate workers on safety issues and formulate rules 
of operation; \124\ protects workers' right to have knowledge 
of, speak up about, and address work safety issues; \125\ sets 
forth trade unions' rights to pursue workers' complaints over 
safety issues; \126\ tasks local governments at the county 
level or above to inspect and handle violations and potential 
dangers in a timely manner; \127\ and lays out the consequences 
for non-compliance.\128\
    Workers in China, however, continued to face persistent 
occupational safety issues, especially those working in the 
mining industry. On November 9, 2010, Zhang Mingqi, the Vice 
Chairman of the All-China Federation of Trade Unions, spoke to 
reporters at the National Mining Industry Health and Safety 
Experience Exchange Conference and stated that China had 18,128 
reported cases of occupational-related illnesses in 2009, which 
represented a 32 percent increase from the previous year.\129\ 
Of the 2009 cases, 14,495--about 80 percent--involved the lung 
disease pneumoconiosis.\130\ The People's Daily has reported 
that a total of 57,000 Chinese coal miners suffer from 
pneumoconiosis annually, and more than 6,000 of them die from 
the disease each year.\131\ Reportedly, ``pneumoconiosis is now 
responsible for nearly three times as many deaths each year as 
mine accidents.'' \132\
    Miners are limited in their ability to promote safer 
working conditions in part due to legal obstacles to 
independent organizing. Collusion between mine operators and 
local government officials reportedly remains widespread.\133\ 
Chinese authorities reportedly closed 1,600 small coal mines 
with ``outdated facilities'' during the first 10 months of 
2010.\134\ The State Administration of Work Safety issued a 
directive in September 2010 requiring mine managers to spend 
time in the shafts with workers in an effort to focus their 
attention on safety issues; the directive also laid out 
specific fines for managers who refused to do so.\135\ The 
China Daily, however, reported that some managers skirted the 
new requirements by handpicking ``people to be promoted to 
`assistants to managers' and to accompany the miners'' in their 
place.\136\


                           working conditions


    Workplace abuses and poor working conditions remained a 
persistent problem this reporting year. Allegations of unsafe 
working environments, for example, continued to surface at 
factories operated by Foxconn, a Taiwanese-owned company that 
manufactures electronic products. In July, a worker died after 
falling from his dormitory at one of Foxconn's factory 
complexes in southern China.\137\ The Commission reported last 
year that more than 10 employees committed suicide in 2010, 
reportedly as a result of the harsh working conditions at the 
company's production plants.\138\ Workers often cited low 
wages, forced overtime, military-style management, and social 
isolation as some of the major problems that they face.\139\ 
Reports also indicated that some workers are also exposed to 
chemicals known to be harmful.\140\ In May 2011, a blast at 
Foxconn's factory in Chengdu city killed 3 people and injured 
16 others; the families of the factory's workers complained at 
the time that Foxconn management ``turned down'' their demand 
for ``a list of dead and injured.'' \141\ Poor conditions and 
other workplace abuses also surfaced at other factories, 
including ``routine excessive overtime'' that averaged 120 
hours per month, use of harmful chemicals, poor ventilation, 
arbitrary calculation of wages, and mistreatment by 
management.\142\ The Commission also observed one recently 
published report detailing a past case involving Chinese 
prisoners who, in addition to doing hard labor during the day, 
were ``forced to play online games'' at night ``to build up 
credits that prison guards would then trade for real money.'' 
\143\


                          workers compensation


    One major problem facing injured workers or their family 
members seeking to receive timely compensation is China's 
``complicated and incredibly time consuming'' work-related 
injury compensation procedure.\144\ Some cases reportedly can 
last for decades.\145\ It is difficult to determine the total 
number of cases in part because many cases never are reported 
due to the complicated nature of the compensation process.\146\ 
Moreover, Chinese courts and doctors do not routinely recognize 
some occupational diseases. While traumatic work injuries and 
deaths have been widely recognized and reported, experts on 
workers compensation litigation in China report failure to 
diagnose diseases like silicosis and failure to recognize that 
the condition may be caused by exposure to chemicals at 
work.\147\ As a result, the extent of work-related diseases 
like silicosis remains difficult to measure and report on and, 
therefore, in many cases goes largely unrecognized.\148\
    In January 2011, the State Council's revisions to the 
Regulations on Work-Related Injury Insurance (Work Injury 
Regulations) became effective.\149\ The revisions made 24 
changes to the old Regulations, clarifying the definitions of 
what constituted ``occupational injuries''; \150\ adding law 
firms and accounting firms, among others, to the list of 
contributors to the occupational injury insurance fund; \151\ 
and stating that in applications where ``the facts are clear'' 
and ``rights and obligations are apparent,'' the social 
insurance administrative department shall render a decision 
within 15 days of accepting the applications.\152\
    In addition to the aforementioned Work Injury Regulations, 
the PRC Law on Social Insurance, which went into effect in July 
2011, also addressed the topic of work-related injury 
insurance.\153\ It clarifies that the ``employing unit,'' not 
the worker, is responsible for contributing to the work-related 
injury insurance fund.\154\ The law states that the 
contribution rates will be determined by the ``risk level'' of 
each industry, as well as the number of workplace injury cases 
that occur in that industry, and leaves the task of setting the 
specific rate figures to the State Council.\155\ Though the 
law's language maintains that workers are entitled to receive 
work-related injury insurance benefits if their injuries or 
illnesses are certified as work related and that certification 
of such injuries should be ``straight-forward [and] 
convenient,'' it does not provide a specific time requirement 
for the certification process.\156\ The law does, however, 
detail the types of expenses that may be paid with money from 
the insurance fund. These may include, for example, a worker's 
medical treatment and rehabilitation fees as well as food and 
travel allowances if the worker obtains treatment outside of 
the area where the injury took place.\157\
    At this point, it is not clear to what extent the revisions 
to the Work Injury Regulations or the new PRC Law on Social 
Insurance will streamline the complicated and time-consuming 
compensation processes for injured workers. Central government 
directives have, in previous years, encouraged local 
governments to pressure bereaved families into signing 
compensation agreements and to condition out-of-court 
compensation settlements on forfeiture by bereaved families of 
their rights to seek further compensation through the court 
system.\158\ Moreover, there have been reports of local 
officials preempting class actions by prohibiting contact among 
members of bereaved families in order to forestall 
coordination.\159\

                              Child Labor

    Child labor remained a problem in China during this 
reporting year.\160\ As a member of the International Labour 
Organization (ILO), China has ratified the two core conventions 
on the elimination of child labor.\161\ The PRC Labor Law and 
related legislation prohibit the employment of minors under 16 
years old.\162\ Both national and local legal provisions 
prohibiting child labor stipulate fines for employing 
children.\163\ Under the PRC Criminal Law, employers and 
supervisors face prison sentences of up to seven years for 
forcing children to work under conditions of extreme 
danger.\164\ Systemic problems in enforcement, however, have 
dulled the effects of these legal measures. The extent of child 
labor in China is unclear in part because the government does 
not release data on child labor despite frequent requests by 
the U.S. Government, other foreign governments, and 
international organizations. One recent report by a global 
risks advisory firm, however, suggests that China is rated as 
``amongst those with the most widespread abuses of child 
workers'' and estimates that there are ``between 10 to 20 
million underage workers.'' \165\
    Child laborers reportedly work in low-skill service sectors 
as well as small workshops and businesses, including textile, 
toy, and shoe manufacturing enterprises.\166\ Many underage 
laborers reportedly are in their teens, typically ranging from 
13 to 15 years old, a phenomenon exacerbated by problems in the 
education system and labor shortages of adult workers.\167\ In 
March 2011, a Hong Kong newspaper reported that authorities in 
Longgang district, Shenzhen Special Economic Zone, rescued 40 
children who were found working at a factory that manufactured 
electronics.\168\ The children were reportedly between the ages 
of 12 and 14, holders of ``fake identity cards'' that 
apparently demonstrated that they were of legal working age, 
and had worked there for at least three months for about five 
yuan (US$0.77) an hour.\169\ In another case reflective of the 
child labor problem, Apple acknowledged in February 2011 that, 
in 2010, it had discovered 91 children under 16 years old 
working in 10 ``Chinese factories owned by its suppliers''; in 
contrast, in 2009, the company discovered only 11 such 
cases.\170\ In the case of one factory that reportedly hired 42 
of the children, Apple learned that the ``vocational school 
involved in hiring the underage workers had falsified student 
IDs and threatened retaliation against students who revealed 
their ages during [Apple's] audits.'' \171\
    The Chinese government, which has condemned the use of 
child labor and pledged to take stronger measures to combat 
it,\172\ permits ``work-study'' programs and activities that in 
practical terms perpetuate the practice of child labor and are 
tantamount to official endorsement of it.\173\ National 
provisions prohibiting child labor provide that ``education 
practice labor'' and vocational skills training labor organized 
by schools and other educational and vocational institutes do 
not constitute use of child labor when such activities do not 
adversely affect the safety and health of the students.\174\ 
The PRC Education Law supports schools that establish work-
study and other programs, provided that the programs do not 
negatively affect normal studies.\175\ These provisions 
contravene China's obligations as a Member State to ILO 
conventions prohibiting child labor.\176\ In 2006, the ILO's 
Committee of Experts on the Applications of Conventions and 
Recommendations ``expresse[d] . . . concern at the situation of 
children under 18 years performing forced labor not only in the 
framework of re-educational and reformative measures, but also 
in regular work programs at school.'' \177\

                                Endnotes

    \1\ See, e.g., All-China Federation of Trade Unions, ``The 
Conditions of New Generation Migrant Workers in Enterprises: A 2010 
Study and Policy Recommendations'' [2010 nian qiye xinshengdai 
nongmingong zhuangkuang diaocha ji duice jianyi], 21 February 11; Qian 
Yanfeng, ``Migrant Workers Can Earn Degrees,'' China Daily, 7 December 
10; ``Unhappy Rural Workers `Threaten Social Stability,' '' Reuters, 
reprinted in South China Morning Post, 15 June 11; ``Riots Highlight 
Migrant Rights,'' Radio Free Asia, 14 June 11; Jeremy Page, ``China 
Stamps Out Southern Unrest,'' Wall Street Journal, 15 June 11; 
Katherine Ryder, ``China's Labor Market: Valuable Asset or Economic 
Albatross? '' Fortune, reprinted in CNN Money, 17 December 10; Li Li, 
``Battling for Workers: China's Labor Pool Is Not Running Dry, but 
Migrant Workers Are Expecting More From Cities,'' Beijing Review, 8 
March 11; ``Crimes Committed by Young Migrant Workers Spark Public 
Concern,'' Xinhua, 25 February 11.
    \2\ All-China Federation of Trade Unions, ``The Conditions of New 
Generation Migrant Workers in Enterprises: A 2010 Study and Policy 
Recommendations'' [2010 nian qiye xinshengdai nongmingong zhuangkuang 
diaocha ji duice jianyi], 21 February 11; Zhang Jieping and Zhu Yixin, 
``Labor Movement's Demand for the Establishment of Independent Unions 
Will Change the Country's Trajectory'' [Zhongguo gong yun yaoqiu 
chengli duli gonghui gaibian guoyun guiji], Asia Week, 13 June 10.
    \3\ All-China Federation of Trade Unions, ``The Conditions of New 
Generation Migrant Workers in Enterprises: A 2010 Study and Policy 
Recommendations'' [2010 nian qiye xinshengdai nongmingong zhuangkuang 
diaocha ji duice jianyi], 21 February 11.
    \4\ Ibid.
    \5\ Ibid.
    \6\ Ibid.
    \7\ Ibid.
    \8\ ``Agricultural Minister Han Changfu Discusses `Post-1990s' 
Migrant Workers'' [Nongyebu buzhang han changfu tan ``90 hou'' 
nongmingong], China Review News, 1 February 10. See also ``Joint 
Editorial Calling for Hukou Reform Removed From Internet Hours After 
Publication, Co-Author Fired,'' CECC China Human Rights and Rule of Law 
Update, No. 4, 21 April 10, 1-2.
    \9\ See, e.g., James Pomfret and Chris Buckley, ``Special Report: 
China Migrant Unrest Exposes Generation Faultline,'' Reuters, 28 June 
11; Zhang Jieping and Zhu Yixin, ``Labor Movement's Demand for the 
Establishment of Independent Unions Will Change the Country's 
Trajectory'' [Zhongguo gong yun yaoqiu chengli duli gonghui gaibian 
guoyun guiji], Asia Week, 13 June 10.
    \10\ For more information, see the Web site ``China Strikes: 
Mapping Labor Unrest Across China.'' According to the site's founder, 
Manfred Elfstrom, China Strikes is dedicated to tracking ``strikes, 
protests and other collective actions taken by Chinese workers to 
defend their rights and interests.'' News reports of worker actions are 
regularly uploaded onto the site, and they are classified into 
different categories, such as apparel and textile, bus and truck 
drivers, machinery and appliance, mines, etc. Data may also be viewed 
in a map format, showing the number of worker actions that took place 
in various regions across China. China Strikes, last visited June 2, 
2011.
    \11\ James Pomfret, ``Police Stem S. China Riots but Migrant 
Workers' Anger Runs Deep,'' Reuters, reprinted in Yahoo!, 14 June 11. 
See also ``Zengcheng Riot: China Forces Quell Migrant Unrest,'' BBC, 14 
June 11; Jeremy Page, ``China Stamps Out Southern Unrest,'' Wall Street 
Journal, 15 June 11; ``Security Reported Tight in Riot-Torn South China 
City as Unofficial Curfew Imposed,'' Associated Press, reprinted in 
Washington Post, 13 June 11.
    \12\ ``Workers Occupied Front Gate of Guizhou Liquor Factory; 
Restructuring Revealed Protests With Tears of Blood'' [Guizhou chunjiu 
chang damen bei gongren zhanling, gaizhi jiekai xuelei kangyi], Workers 
Forum, 27 April 11.
    \13\ China Labour Bulletin, ``Migrant Worker Union Negotiates Pay 
Deal for Tianjin Cleaners,'' 1 April 11.
    \14\ James Pomfret, ``More Problems for China's Foxconn Over 
Workers' Pay,'' Reuters, 19 November 10; China Labour Bulletin, 
``Foxconn Workers in Foshan Strike Over Low Pay,'' 19 November 10.
    \15\ China Labour Net, ``Workers of Guangzhou INPEX Metal Product 
Company Limited Call for Support From Japanese Trade Union,'' 13 
November 10.
    \16\ ``Assembly of Private Teachers in Ten-Some Counties and 
Municipalities in Hubei Province Calls for Release of Yang Huanqing, 
Who Was Sent to Reeducation Through Labor'' [Hubei shiyu xian shi 
minshi jihui yaoqiu jiefang bei laogai de yang huanqing], Boxun, 28 
March 11.
    \17\ ``Labor Lawyer Imprisoned in Xi'an for Organizing Against 
Corrupt Privatization of State Enterprises,'' China Labor News 
Translations, 10 January 11; ``Xi'an Rights Defender Zhao Dongmin 
Detained; Applied for the Establishment of `Workers Defense Congress' 
'' [Shenqing chengli ``gongwei hui'' xi'an weiquan renshi zhao dongmin 
bei xingju], Radio Free Asia, 27 August 09; ``No Trial for Labor 
Activist,'' Radio Free Asia, 8 September 10.
    \18\ ``Labor Lawyer Imprisoned in Xi'an for Organizing Against 
Corrupt Privatization of State Enterprises,'' China Labor News 
Translations, 10 January 11; China Study Group, ``Zhao Dongmin 
Sentenced to Three Years,'' 25 October 10. See also Utopia, ``A 
Discussion With the Compatriots Who Care for and Love Zhao Dongmin'' 
[Yu guanxin he aihu zhao dongmin de tongzhimen shangque], 23 October 
10.
    \19\ Utopia, ``Sunshine Is the Best Disinfectant and Antiseptic'' 
[Yangguang shi zuihao de shajun fangfuji], 26 October 10.
    \20\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \21\ Bill Taylor and Qi Li, ``Is the ACFTU a Union and Does It 
Matter? '' Journal of Industrial Relations, Vol. 49, No. 5 (2007), 701-
15.
    \22\ PRC Trade Union Law, enacted and effective 3 April 92, amended 
27 October 01; Constitution of the Chinese Trade Unions, adopted 26 
September 03, amended 21 October 08.
    \23\ See, e.g., Qiu Liben, ``The Silent Lambs Are No Longer 
Silent'' [Chenmo de gaoyang buzai chenmo], Asiaweek, 13 June 10; Keith 
Bradsher, ``A Labor Movement Stirs in China,'' New York Times, 10 June 
10; Yu Jianrong, ``No Social Stability Without Labor Protection,'' 
China Media Project, 15 June 10; Mingwei Liu, ``Chinese Employment 
Relations and Trade Unions in Transition,'' Ph.D. Dissertation, Cornell 
University, School of Industrial and Labor Relations, January 2009; 
China Labour Bulletin, ``Protecting Workers' Rights or Serving the 
Party: The Way Forward for China's Trade Union,'' March 2009.
    \24\ Han Dongfang, ``China's Main Union Is Yet To Earn Its Job,'' 
Guardian, 26 June 11; Anita Chan, ``Labor Unrest and Role of Unions,'' 
China Daily, 18 June 10; China Labour Bulletin, ``Protecting Workers' 
Rights or Serving the Party: The Way Forward for China's Trade Union,'' 
March 2009.
    \25\ International Trade Union Confederation, ``China,'' in Asia 
and the Pacific, an Annual Survey of Violations of Trade Union Rights 
(2009).
    \26\ Simon Clarke et al., ``Collective Consultation and Industrial 
Relations in China,'' British Journal of Industrial Relations, Vol. 42, 
No. 2 (2004), 235, 240.
    \27\ Yang Lin, ``Grasp the Opportunity To Reevaluate the Structure 
of Labor and Management, Eliminate Contradictions and Hidden Dangers in 
Labor and Management, and Adjust Policy'' [Zhua zhu chongxin shenshi 
laozi geju, xiaochu laozi maodun yinhuan, tiaozheng laogong zhengce de 
jihui], Outlook, 16 December 09.
    \28\ All-China Federation of Trade Unions, ``Chinese Trade Unions 
Make Progress in 2010,'' 31 January 11.
    \29\ Ibid.
    \30\ Ibid.
    \31\ CECC, 2010 Annual Report, 10 October 10, 76-77.
    \32\ Guangdong Province People's Congress Standing Committee, 
``Opinions From the Public Openly Sought for `Guangdong Province's 
Regulations on Enterprise Democratic Management (Third Draft for Public 
Comment)' '' [Guangdong sheng qiye minzhu guanli tiaoli cao'an xiugai 
(san gao zhengqiu yijian gao) xiang shehui gongkai zhengqiu yijian], 23 
August 10, art. 36.
    \33\ Ibid., art. 34.
    \34\ Ibid., art. 32.
    \35\ Ibid.
    \36\ ``Guangdong Decides To Delay `Regulations on Democratic 
Management of Enterprises' '' [Guangdong jue huan shen qiye minzhu 
guanli tiaoli], Wen Wei Po, 18 September 10.
    \37\ Denise Tsang, ``Collective Wage Bargaining Plan To Start Next 
Month,'' South China Morning Post, 15 January 11.
    \38\ CECC Staff Interview.
    \39\ Qingdao Public Health Bureau, ``The Wages of Contract Nurses 
in Qingdao Can Be Settled Through Collective Consultation'' [Qingdao 
hetongzhi hushi gongzi ke jiti xieshang], 18 April 11; China Labour 
Bulletin, ``The Wages of Health Contract Workers in Qingdao Can Be 
Settled Through Collective Consultation'' [Qingdao weisheng hetonggong 
gongzi ke jiti xieshang], 22 March 11.
    \40\ Ibid.
    \41\ Qingdao Public Health Bureau, ``The Wages of Contract Nurses 
in Qingdao Can Be Settled Through Collective Consultation'' [Qingdao 
hetongzhi hushi gongzi ke jiti xieshang], 18 April 11.
    \42\ ``Changde City, Hunan Province's `Spring Contract Action' on 
Collective Wage Consultation Commences'' [Hunan sheng changde gongzi 
jiti xieshang chunji yaoyue xingdong qidong], Changde Evening News, 29 
March 11; China Labour Bulletin, ``Cities Across China Roll Out 
Collective Wage Initiatives,'' 25 March 11.
    \43\ Rizhao City People's Government, `` `Rizhao City Worker 
Collective Wage Consultation Trial Methods' Is Released'' [``Rizhao shi 
zhigong gongzi jiti xieshang shixing banfa'' chutai], 9 March 11; China 
Labour Bulletin, ``Cities Across China Roll Out Collective Wage 
Initiatives,'' 25 March 11.
    \44\ ``Qinhuangdao Year of Collective Wage Consultations Hundred-
Day Action Commences'' [Qinhuangdao gongzi jiti xieshang tuijin nian 
huodong qidong], Hebei News Net, reprinted in China Worker Net, 12 
April 11; China Labour Bulletin, ``Cities Across China Roll Out 
Collective Wage Initiatives,'' 25 March 11.
    \45\ China Labour Bulletin, ``Lighter Enterprise in Guanhaiwei Town 
in Cixi Experiments With Collective Consultation'' [Cixi guanhaiwei 
zhen huo ji hangye shixing gongzi jiti xieshang], 24 March 11.
    \46\ China Labour Bulletin, ``Shenzhen Trade Union Announces Major 
Push for Collective Wage Negotiations,'' 24 March 11.
    \47\ Stanley Lubman, ``Are Strikes the Beginning of a New 
Challenge? '' Wall Street Journal, 25 June 10; Simon Clarke et al., 
``Collective Consultation and Industrial Relations in China,'' British 
Journal of Industrial Relations, Vol. 42, No. 2 (2004), 235, 240.
    \48\ ``China's `Floating Population' Exceeds 221 Million,'' Xinhua, 
reprinted in China Daily, 28 February 11.
    \49\ ``Migrant Population To Grow to 350 Million: Report,'' China 
Daily, 31 May 11; ``China's `Floating Population' Exceeds 221 
Million,'' Xinhua, reprinted in China Daily, 28 February 11.
    \50\ Congressional-Executive Commission on China, Topic Paper: 
China's Household Registration System: Sustained Reform Needed To 
Protect China's Rural Migrants, 7 October 05. See also China Labour 
Bulletin, ``17 Migrant Workers Die in Fire at Illegally-Built 
Workshop,'' 26 April 11; Zhang Yan and Li Jiabao, ``17 Perish as 
Inferno Razes Illegal Plant,'' China Daily, 26 April 11; Shenzhen 
Dagongzhe Migrant Worker Centre, ``New Ongoing Violations After the 
Implementation of Labor Contract Law in China,'' 12 June 09; Jeffrey 
Becker and Manfred Elfstrom, International Labor Rights Forum, ``The 
Impact of China's Labor Contract Law on Workers,'' 23 February 10, 7-
10, 18.
    \51\ For additional information, see, e.g., Kam Wing Chan, ``The 
Chinese Hukou System at 50,'' Eurasian Geography and Economics, Vol. 
50, No. 2 (2009), 197-221.
    \52\ Zhou Pingxiang, ``Ten Thugs Brandishing Steel Pipes Beat 100 
Migrant Workers Over Wage Dispute; Eight People Were Injured and 
Hospitalized'' [Nongmin gong shangmen taoxin zaojin bairen weiou 8 ren 
shoushang jin yiyuan], Yunnan Net, 1 February 11.
    \53\ ``Migrants `Losing Out on Benefits,' '' Shanghai Daily, 28 
March 11; Wang Wen, ``The Woes of Injury at Work,'' China Daily, 14 
March 11.
    \54\ Liu Conglong, Department of Rural Social Insurances, Ministry 
of Human Resources and Social Security, ``Latest Developments of the 
Old-Age Insurance System for Urban and Rural Residents in China,'' 11 
May 11; State Council, Guiding Opinion Regarding the Initiation of New-
Type Rural Social Old-Age Insurance Pilots [Guowuyuan guanyu kaizhan 
xinxing nongcun shehui yanglao baoxian shidian de zhidao yijian], 
issued 1 September 09, art. 1.
    \55\ State Council Circular Regarding the Interim Method To 
Transfer and Continue the Old-Age Insurance Relationship of Urban 
Enterprise Workers [Chengzhen qiye zhigong jiben yanglao baoxian guanxi 
zhuanyi jiexu zanxing banfa de tongzhi], 28 December 09.
    \56\ ``NPC Standing Committee Passes Social Insurance Law by Wide 
Margin'' [Renda changweihui gaopiao tongguo shehui baoxian fa], Xinhua, 
28 October 10.
    \57\ Ibid.
    \58\ PRC Social Insurance Law, enacted 28 October 10, effective 1 
July 11; Hong Kong Trade Development Council, ``China Enacts Social 
Insurance Law,'' 3 May 11; ``NPC Standing Committee Passes Social 
Insurance Law by Wide Margin'' [Renda changweihui gaopiao tongguo 
shehui baoxian fa], Xinhua, 28 October 10; ``Social Insurance Law 
Becomes Effective Next July; May Receive Retirement Benefits in Less 
Than 15 Years'' [Shebao fa mingnian 7 yue shixing buman 15 nian ke bu 
jiao lingqu yanglao jin], Guangzhou Daily, reprinted in Sina, 29 
October 10; ``Social Insurance Law Clearly States That Retirement 
Insurance and Benefits Will Be Gradually Coordinated Nationwide'' 
[Shebao fa mingque yanglao xian zhubu shixing quanguo tongchou], 
Beijing News, 29 October 10.
    \59\ PRC Social Insurance Law, issued 28 October 10, effective 1 
July 11, art. 2.
    \60\ Ibid., arts. 10-22.
    \61\ Ibid., arts. 23-32.
    \62\ Ibid., arts. 33-43.
    \63\ Ibid., arts. 44-52.
    \64\ Ibid., arts. 53-56.
    \65\ Ibid., arts. 10, 23, 44.
    \66\ Ibid., arts. 33, 53.
    \67\ Ibid., art. 58.
    \68\ Ibid., art. 62.
    \69\ Ibid., art. 63.
    \70\ Ibid., art. 3.
    \71\ Ibid., art. 95. For more information, see ``China's Top 
Legislature Adopts Social Insurance Law To Safeguard Social Security 
Funds,'' Xinhua, 28 October 10; ``NPC Standing Committee Passes Social 
Insurance Law by Wide Margin'' [Renda changweihui gaopiao tongguo 
shehui baoxian fa], Xinhua, 28 October 10.
    \72\ PRC Social Insurance Law, issued 28 October 10, effective 1 
July 11, art. 19.
    \73\ Ibid.
    \74\ PRC Social Insurance Law, issued 28 October 10, effective 1 
July 11, art. 64; Laney Zhang, ``China: Law on Social Insurance 
Passed,'' Library of Congress, 4 November 10; ``Social Insurance Law 
Clearly States That Retirement Insurance and Benefits Will Be Gradually 
Coordinated at the National Level'' [Shebao fa mingque yanglao xian 
zhubu shixing quanguo tongchou], Beijing News, 29 October 10.
    \75\ Susan Deng, ``Changes Introduced by the New PRC Social 
Insurance Law,'' Mayer Brown JSM Legal Update, 1 December 10.
    \76\ Laney Zhang, ``China: Law on Social Insurance Passed,'' 
Library of Congress, 4 November 10.
    \77\ ``Another Round of Minimum Wage Adjustment; Shenzhen Is Moved 
to Highest in the Nation'' [Zuidi gongzi biaozhun xin yi lun tiaozheng 
shenzhen tiao zhi quanguo zuigao], China Business Network, reprinted in 
Hexun, 4 March 11.
    \78\ Ibid.
    \79\ Guangdong Province People's Government, Circular Regarding the 
Adjustment of Minimum Wage Standards for Guangdong Province's 
Enterprise Workers [Guanyu tiaozheng wo sheng qiye zhigong zuidi gongzi 
biaozhun de tongzhi], 18 January 11; ``Another Round of Minimum Wage 
Adjustment; Shenzhen Is Moved to Highest in the Nation'' [Zuidi gongzi 
biaozhun xin yi lun tiaozheng shenzhen diao zhi quanguo zuigao], China 
Business Network, 4 March 11; Fang Zhenbin, ``Pearl River Delta Region 
Faces Difficulties in Finding and Retaining Workers'' [Zhu sanjiao diqu 
mianlin zhaogong nan he liu gong nan kunrao], Southern Daily, reprinted 
in CNFOL.com, 23 February 11.
    \80\ ``Another Round of Minimum Wage Adjustment; Shenzhen Is Moved 
to Highest in the Nation'' [Zuidi gongzi biaozhun xin yi lun tiaozheng 
shenzhen diao zhi quanguo zuigao], China Business Network, 4 March 11.
    \81\ Ibid.
    \82\ Denise Tang, ``Guangdong Pay Pledge To Drive Out HK 
Factories,'' South China Morning Post, 18 January 11; China Labour 
Bulletin, ``Minimum Wage Set To Increase in Cities Across China,'' 5 
February 10.
    \83\ Zheng Lifei et al., ``Zhou Pledges More Tightening as China 
Raises Reserve Ratios,'' Bloomberg, 17 April 11; China Labour Bulletin, 
``Guangdong Raises Minimum Wage as Inflation Hurts Workers,'' 28 
February 11.
    \84\ National Bureau of Statistics of China, ``China's Major 
Economic Indicators in May,'' 14 June 11.
    \85\ PRC Labor Law, enacted 5 July 94, effective 1 January 95, art. 
48.
    \86\ PRC Labor Contract Law, issued 29 June 07, effective 1 January 
08, art. 74(5).
    \87\ Ibid., art. 85.
    \88\ Ibid., art. 72.
    \89\ ``Over 100 Migrant Workers Kneel in Front of the Zunhua City, 
Hubei Province, Government Building To Talk Wages'' [Bai yu nongmin 
gong zai hebei zun hua shi zhengfu menkou xia gui tao xin], Sichuan 
Daily, 13 January 11; Su Dake, ``If I Were the Boss I'd Fail To Pay 
Wages Too'' [Ruguo wo shi laoban ye hui qian xin, you qian cai shi ye 
mei laingxin suan ge sha], Southern Daily, 5 January 11; Zhou 
Pingxiang, ``Ten Thugs Brandishing Steel Pipes Beat 100 Migrant Workers 
Over Wage Dispute; Eight People Were Injured and Hospitalized'' 
[Nongmin gong shangmen tao xin zao jin bairen wei ou 8 ren shoushang 
jin yuyuan], Yunnan Net, 1 February 11.
    \90\ CECC, 2010 Annual Report, 10 October 10, 80.
    \91\ ``Over 100 Migrant Workers Kneel in Front of the Zunhua City, 
Hubei Province, Government Building To Talk Wages'' [Bai yu nongmin 
gong zai hebei zun hua shi zhengfu menkou xia gui tao xin], Sichuan 
Daily, 13 January 11.
    \92\ Suo Han, `` `Wage Regulations' Framework Basically Solidified, 
but Difficult To Roll Out by Year's End'' [``Gongzi tiaoli'' kuangjia 
chu ding niannei nan chutai], China Business Network, 19 November 10.
    \93\ ``Draft of Wage Regulation Faces Pressure From Ministry 
Committees; Accused of Interfering With Internal Management of 
Monopolized Industries'' [Gongzi tiaoli cao'an zaoyu buwei yali bei zhi 
ganshe longduan qi ye neibu guanli], First Financial, reprinted in 
People's Daily, 1 September 10.
    \94\ Ibid.
    \95\ Ibid.
    \96\ Suo Han, `` `Wage Regulations' Framework Basically Solidified, 
but Difficult To Roll Out by Year's End'' [``Gongzi tiaoli'' kuangjia 
chu ding niannei nan chutai], China Business Network, 19 November 10.
    \97\ Zhao Peng, ``Draft of Wage Regulation To Be Reported to State 
Council; Intended To Publicize Wages of Monopolized Industries'' 
[Gongzi tiaoli cao'an jiang bao guowuyuan ni gongbu longduan hangye 
gongzi], Beijing Times, reprinted in Sina, 29 July 10.
    \98\ Ibid.
    \99\ Ibid.
    \100\ `` `Enterprise Wage Regulations' Draft Revisions Near End; 
Industry Insiders Reveal Draft's Brightest Spot'' [``Qiye gongzi 
tiaoli'' cao'an xiugai jiejin weisheng yenei renshi toulu gai cao'an 
zuida liang], Lanzhou Morning Post, reprinted in Sina, 5 August 10.
    \101\ Ibid.
    \102\ Ibid.
    \103\ Lai Fang, ``Will Publicizing Monopolized Industries' Salaries 
Bring More Equal Wage Distribution? '' [Gongshi longduan hangye gongzi 
neng fou dailai gongzi de gongping fenpei?], Southern Weekend, 23 
November 10; ``Draft of Wage Regulation Faces Pressure From Ministry 
Committees; Accused of Interfering With Internal Management of 
Monopolized Industries'' [Gongzi tiaoli cao'an zaoyu buwei yali pi zhi 
ganshe longduan qi ye neibu guanli], First Financial, reprinted in 
People's Daily, 1 September 10; Chen Chen, China Internet Information 
Center, ``Social Status, Industrial Monopolies Cause Widening Income 
Gap,'' 26 May 10; `` `Enterprise Wage Regulations' Draft Revisions Near 
End; Industry Insiders Reveal Draft's Brightest Spot'' [``Qiye gongzi 
tiaoli'' cao'an xiugai jiejin weisheng yenei renshi toulu gai cao'an 
zuida liangdian], Lanzhou Morning Post, reprinted in Sina, 5 August 10.
    \104\ Chen Chen, China Internet Information Center, ``Social 
Status, Industrial Monopolies Cause Widening Income Gap,'' 26 May 10.
    \105\ `` `Enterprise Wage Regulations' Draft Revisions Near End; 
Industry Insiders Reveal Draft's Brightest Spot'' [``Qiye gongzi 
tiaoli'' cao'an xiugai jiejin weisheng yenei renshi toulu gai cao'an 
zuida liangdian], Lanzhou Morning Post, reprinted in Sina, 5 August 10.
    \106\ Lai Fang, ``Will Publicizing Monopolized Industries' Salaries 
Bring More Equal Wage Distribution? '' [Gongshi longduan hangye gongzi 
neng fou dai lai gongzi de gongping fenpei?] Southern Weekend, 23 
November 10.
    \107\ Ibid.
    \108\ Willy Lam, Jamestown Foundation, ``2010 Census Exposes Fault 
Lines in China's Demographic Shifts,'' 6 May 11; Olivia Chung, ``China 
Labor Shortage Spreads,'' Asia Times, 29 January 11; Jui-te Shih, 
``Labor Shortages Spread to More Regions, Industries in China,'' Want 
China Times, 17 June 11; Edward Wong, ``Chinese Export Regions Face 
Labor Shortages,'' New York Times, 29 November 10; Jianmin Li, 
Jamestown Foundation, ``China's Looming Labor Supply Challenge? '' 8 
April 11; Ma Jiantang, ``National Labor Shortage Looms on Horizon,'' 
Global Times, 3 May 11; Mark MacKinnon and Carolynne Wheeler, ``China's 
Future: Growing Old Before It Grows Rich,'' Globe and Mail, 28 April 
11. For a long-range perspective on wages in China, see Dennis Tao 
Yang, Vivian Chen, and Ryan Monarch, Institute for the Study of Labor, 
``Rising Wages: Has China Lost Its Global Labor Advantage? '' 
Discussion Paper No. 5008, June 2010.
    \109\ ``2010 First Quarter Analysis on Economic Conditions and 
Yearly Outlook'' [2010 nian yi jidu jingji xingshi fenshi yu quannian 
zhanwang], China Economic Net, 28 April 10.
    \110\ Kathrin Hille, ``China's Inner Landscape Changes,'' Financial 
Times, 3 March 11.
    \111\ Federation of Hong Kong Industries, ``Survey Report on Labour 
Issues Faced by HK Manufacturing Companies in the PRD,'' 28 July 10. 
See also Dennis Tao Yang, Vivian Chen, and Ryan Monarch, The Institute 
for the Study of Labor, ``Rising Wages: Has China Lost Its Global Labor 
Advantage? '' Discussion Paper No. 5008, June 2010.
    \112\ Andy Xie, ``Sweet Spot for China's Blue-Collar Revolution,'' 
Caixin Net, reprinted in Market Watch, 28 June 10.
    \113\ Hou Lei, ``Official: Wage Share Decreases 22 Years in a 
Row,'' China Daily, 12 May 10.
    \114\ Suo Han, `` `Wage Regulations' Framework Basically 
Solidified, Difficult To Roll Out by Year's End'' [``Gongzi tiaoli'' 
kuangjia chu ding niannei nan chutai], China Business Network, 19 
November 10; ``Draft of Wage Regulation Faces Pressure From Ministry 
Committees; Accused of Interfering With Internal Management of 
Monopolized Industries'' [Gongzi tiaoli cao'an zaoyu buwei yali bei zhi 
ganshe longduan qiye neibu guanli], First Financial, reprinted in 
People's Daily, 1 September 10.
    \115\ Suo Han, `` `Wage Regulations' Framework Basically 
Solidified, but Difficult To Roll Out by Year's End'' [``Gongzi 
tiaoli'' kuangjia chu ding niannei nan chutai], China Business Network, 
19 November 10.
    \116\ Ibid.
    \117\ Ibid.
    \118\ Ibid.
    \119\ Ibid.
    \120\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 1.
    \121\ Ray Kwong, ``What China's 12th Five-Year Plan Means to the 
Average Zhou,'' 31 August 11.
    \122\ Nicholas Consonery et al., Eurasia Group, ``China's Great 
Rebalancing,'' 18 August 11. See also, Ray Kwong ``What China's 12th 
Five-Year Plan Means to the Average Zhou,'' 31 August 11.
    \123\ PRC Safe Production Law, issued 29 June 02, effective 1 
November 02, arts. 1, 2.
    \124\ Ibid., arts. 17, 21.
    \125\ Ibid., art. 45.
    \126\ Ibid., art. 52.
    \127\ Ibid., art. 53.
    \128\ Ibid., art. 82.
    \129\ Yuan Junbao, ``Great Progress in Preventing Pneumoconiosis in 
China's Coal Mines; Situation Is Still Grim'' [Woguo meikuang chenfei 
bing fangzhi qude jiao da jinzhan xingshi yiran yanjun], Xinhua, 
reprinted in PRC People's Central Government, 9 November 10.
    \130\ Ibid. See also China Labour Bulletin, ``Time To Overhaul Coal 
Mine Safety in China,'' 19 November 10.
    \131\ ``57,000 Chinese Coal Miners Suffer From Lung Disease 
Annually,'' People's Daily, 11 November 10.
    \132\ China Labour Bulletin, ``Time To Overhaul Coal Mine Safety in 
China,'' 19 November 10.
    \133\ China Labour Bulletin, ``Injured Coal Miner Struggles for 
Compensation,'' 24 February 11.
    \134\ ``Mainland Closes 1,600 Illegal Coal Mines,'' Associated 
Press, reprinted in South China Morning Post, 15 October 10.
    \135\ ``Bosses Who Don't Enter China's Mines May Be Fined,'' 
Associated Press, reprinted in Washington Post, 7 October 10.
    \136\ Wang Huazhong, ``Mine Leaders To Send Substitutes 
Underground,'' China Daily, 21 September 10.
    \137\ ``Another Foxconn Worker `Falls to Death,' '' South China 
Morning Post, 20 July 11.
    \138\ CECC, 2010 Annual Report, 10 October 10, 80; Cary Huang, 
``Foxconn Worker in Chengdu Suicide,'' South China Morning Post, 27 May 
11. See also ``Military-Style Management,'' Global Times, 24 May 11.
    \139\ Chloe Albanesius, ``Foxconn Factories: How Bad Is It? '' PC 
Magazine, 6 May 11; ``Military-Style Management,'' Global Times, 24 May 
11.
    \140\ Chloe Albanesius, ``Foxconn Factories: How Bad Is It? '' PC 
Magazine, 6 May 11.
    \141\ Liu Linlin, ``Families Say Foxconn Not Cooperating,'' Global 
Times, 23 May 11; Tim Culpan and Joshua Fellman, ``Foxconn's Plant in 
China Has Fire, Killing Two,'' Bloomberg, 20 May 11.
    \142\ Gethin Chamberlain, ``Disney Factory Faces Probe Into 
Sweatshop Suicide Claims,'' Guardian, 27 August 11. See also China 
Labour Bulletin, ``Waking From a Ten-Year Dream,'' 21 February 11; 
Chloe Albanesius, ``Foxconn Factories: How Bad Is It? '' PC Magazine, 6 
May 11.
    \143\ Danny Vincent, ``China Used Prisoners in Lucrative Internet 
Gaming Work,'' Guardian, 25 May 11.
    \144\ Kathleen E. McLaughlin, ``Silicon Sweatshops: What's a Worker 
Worth? The Cold Calculus of Supply Chain Economics,'' Global Post, 17 
March 10.
    \145\ Ibid.
    \146\ Ibid.
    \147\ CECC Staff Interview.
    \148\ Ibid.
    \149\ State Council Decision Regarding Amendments to ``Regulations 
on Occupational Injury Insurance'' [Guowuyuan guanyu xiupai ``gongshang 
baoxian tiaoli'' de jueding], 20 December 10, effective 1 January 11.
    \150\ Ibid., art. 8.
    \151\ State Council Decision Regarding Amendments to ``Regulations 
on Occupational Injury Insurance [Guowuyuan guanyu xiupai ``gongshang 
baoxian tiaoli'' de jueding], 20 December 10, effective 1 January 11; 
PRC State Council, ``PRC State Council Notice 586 `State Council 
Decision Regarding Amendments to Regulations on Occupational Injury 
Insurance' '' [Zhonghua renmin gongheguo guowuyuan ling di 586 hao 
``guowuyuan guanyu xiugai `gongshang baoxian tiaoli' de jueding''],'' 
20 December 10, art. 1.
    \152\ State Council Decision Regarding Amendments to ``Regulation 
on Occupational Injury Insurance [Guowuyuan guanyu xiupai ``gongshang 
baoxian tiaoli'' de jueding], 20 December 10, effective 1 January 11, 
art. 9.
    \153\ PRC Social Insurance Law, issued 28 October 10, effective 1 
July 11, arts. 33-43.
    \154\ Ibid., art. 33.
    \155\ Ibid., art. 34.
    \156\ Ibid., art. 36.
    \157\ Ibid., arts. 38(1)-38(9).
    \158\ CECC, 2008 Annual Report, 31 October 08, 52; China Labour 
Bulletin, ``Bone and Blood: The Price of Coal in China,'' 17 March 08.
    \159\ Ibid.
    \160\ See, e.g., He Huifeng, ``40 Children Rescued From Shenzhen 
Plant,'' South China Morning Post, 26 March 11; Malcolm Moore, 
``Apple's Child Labour Issues Worsen,'' Telegraph, 15 February 11; 
William Foreman, ``China Factories Break Labor Rules,'' Associated 
Press, 20 April 10; National Labor Committee, ``China's Youth Meet 
Microsoft: KYE Factory in China Produces for Microsoft and Other U.S. 
Companies,'' 13 April 10.
    \161\ ILO Convention (No. 138) Concerning Minimum Age for Admission 
to Employment, 26 June 73, 1015 U.N.T.S. 297; ILO Convention (No. 182) 
Concerning the Prohibition and Immediate Action for the Elimination of 
the Worst Forms of Child Labour, 17 June 99, 2133 U.N.T.S. 161.
    \162\ PRC Labor Law, issued 5 July 94, effective 1 January 95, 
amended 10 October 01, art. 15. See also PRC Law on the Protection of 
Minors, issued 4 September 91, effective 1 January 92, art. 28. See 
generally Provisions on Prohibiting the Use of Child Labor [Jinzhi 
shiyong tonggong guiding], issued 1 October 02, effective 1 December 
02.
    \163\ Provisions on Prohibiting the Use of Child Labor [Jinzhi 
shiyong tonggong guiding], issued 1 October 02, effective 1 December 
02, art. 6. See also ``Legal Announcement--Zhejiang Determines Four 
Circumstances That Define Use of Child Labor'' [Fazhi bobao: zhejiang 
jieding shiyong tonggong si zhong qingxing], China Woman, 26 July 08.
    \164\ This provision was added into the fourth amendment to the 
Criminal Law in 2002. Fourth Amendment to the PRC Criminal Law 
[Zhonghua renmin gonghe guo xingfa xiuzheng an (si)], issued 28 
December 02. See also PRC Criminal Law, issued 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 244.
    \165\ Maplecroft, ``Child Labour Most Widespread in the Key 
Emerging Economies; Climate Change Will Push More Children Into Work,'' 
12 January 10.
    \166\ China Labour Bulletin, ``Small Hands: A Survey Report on 
Child Labor in China,'' September 2007, 7, 8; He Huifeng, ``40 Children 
Rescued From Shenzhen Plant,'' South China Morning Post, 26 March 11.
    \167\ ``Disney Factory Faces Probe Into Sweatshop Suicide Claims,'' 
Guardian, 27 August 11; China Labour Bulletin, ``Small Hands: A Survey 
Report on Child Labor in China,'' September 2007, 15, 22, 25-32.
    \168\ He Huifeng, ``40 Children Rescued From Shenzhen Plant,'' 
South China Morning Post, 26 March 11.
    \169\ Ibid.
    \170\ Malcolm Moore, ``Apple's Child Labour Issues Worsen,'' 
Telegraph, 15 February 11.
    \171\ Apple, ``Apple Supplier Responsibility 2011 Progress 
Report,'' 15 February 11, 9.
    \172\ For the government response to forced labor in brick kilns, 
including child labor, see, e.g., Zhang Pinghui, ``Crackdown on Slave 
Labor Nationwide--State Council Vows To End Enslavement,'' South China 
Morning Post, 21 June 07.
    \173\ Ji Beibei, ``Students Say Schools Require Them To Do 
Internships at Foxconn Factory,'' Global Times, 12 October 10; Ben 
Blanchard, ``China Urged To End `Child Labor' in Schools,'' Reuters, 3 
December 07; Human Rights Watch, ``China: End Child Labor in State 
Schools,'' 3 December 07.
    \174\ Provisions on Prohibiting the Use of Child Labor [Jinzhi 
shiyong tonggong guiding], issued 1 October 02, effective 1 December 
02, art. 13.
    \175\ PRC Education Law, issued 18 March 95, effective 1 September 
95, amended 27 August 09, art. 58.
    \176\ ILO Convention 138 permits vocational education for underage 
minors only where it is an ``integral part'' of a course of study or 
training course. ILO Convention 182 obligates Member States to 
eliminate the ``worst forms of child labor,'' including ``forced or 
compulsory labor.'' ILO Convention (No. 138) Concerning Minimum Age for 
Admission to Employment, 26 June 73, 1015 U.N.T.S. 297; ILO Convention 
(No. 182) Concerning the Prohibition and Immediate Action for the 
Elimination of the Worst Forms of Child Labour, 17 June 99, 2133 
U.N.T.S. 161.
    \177\ ILO Report of the Committee of Experts on the Application of 
Conventions and Recommendations, Worst Forms of Child Labour 
Convention, 1999 (No. 182) China (ratification: 2002) Observation, 
CEACR 2006/77th Session, International Labour Organization, 2006.

                                 <all>

</pre></body></html>
